sommme  (COCKLE

. E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B riefs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 21-260

VIRGIN AMERICA, INC., ET AL.,
Petitioners,
v.
JULIA BERNSTEIN, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF GEORGIA,
ALABAMA, ALASKA, ARKANSAS, FLORIDA, IDAHO, KENTUCKY, LOUISIANA,
MISSISSIPPI, MONTANA, NEBRASKA, NORTH DAKOTA, OHIO, SOUTH CAROLINA,
SOUTH DAKOTA, TENNESSEE, TEXAS, UTAH, AND WEST VIRGINIA AS AMICI CURIAE
IN SUPPORT OF PETITIONERS in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point

for the text and 10 point for the footnotes, and this brief contains 5008 words, excluding the parts
that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 22nd day of September, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

f GENERAL NOTARY-State of Nebraska
RENEE J. GOSS
My Comm. Exp. September 8, 2023

    

ooo Oudiav-h, Chale,

41438
Notary Public Affiant
